<html>
<title> - THE PRESIDENT'S BUDGET REQUEST FOR THE USDA FOREST SERVICE FOR FISCAL YEAR 2021</title>
<body><pre>[Senate Hearing 116-364]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-364
 
 THE PRESIDENT'S BUDGET REQUEST FOR THE USDA FOREST SERVICE FOR FISCAL 
                               YEAR 2021

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 25, 2020

                               __________
                               
                               
                               
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-910               WASHINGTON : 2021        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
            Nick Matiella, Senior Professional Staff Member
                 Renae Black, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
        
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     3

                                WITNESS

Christiansen, Victoria, Chief, USDA Forest Service...............     4

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Christiansen, Victoria:
    Opening Statement............................................     4
    Written Testimony............................................     6
    Responses to Questions for the Record........................    56
Manchin III, Hon. Joe:
    Opening Statement............................................     3
McSally, Hon. Martha:
    ``Modernizing 4FRI Implementation: Progress After Two Years--
      Workshop Final Report'' prepared by the Ecological 
      Restoration Institute, Northern Arizona University dated 2/
      11/2020....................................................    16
Murkowski, Hon. Lisa:
    Opening Statement............................................     1


 THE PRESIDENT'S BUDGET REQUEST FOR THE USDA FOREST SERVICE FOR FISCAL 
                               YEAR 2021

                              ----------                              


                       TUESDAY, FEBRUARY 25, 2020

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Morning everyone. The Committee will come to 
order.
    This morning we will consider the President's budget 
request for the U.S. Forest Service for FY 2021.
    Chief Christiansen, it is good to be able to welcome you 
back to the Committee. Thank you for being here. We say around 
here that the President's budget request is just that, it is a 
request. It does start the annual budget process. It gives us 
here in Congress the opportunity to learn about the 
Administration's priorities and how it would carry them out, 
but ultimately it is up to us to determine what programs to 
fund and what levels.
    Although this year's budget request is far from perfect, I 
agree that the priority must be on wildland fire management and 
improving the health of our forests. I am encouraged the 
Administration is proposing to invest significantly in 
hazardous fuel reduction and other active forest management 
activities. We know such investments pay dividends in reducing 
the risk of severe wildfire. Hopefully we will see this 
important work planned and carried out without any disruptions 
thanks to our work on the Consolidated Appropriations Act of 
2018 which provided new budget authority to fight wildfires. 
The fire fix will be available for the first time in FY 2020, 
and this budget request would make use of it for FY 2021.
    The 2019 fire season was relatively mild in the Lower 48 
with few notable exceptions, but in Alaska last summer is going 
to be going down in the history books. We had over 600 fires 
that burned over 2.5 million acres and we had the nation's 
costliest fire of the year, the Swan Lake Fire on the Kenai 
Peninsula. Thousands of firefighters from across Alaska, 46 
states, Canada and even Puerto Rico fought fires in Alaska last 
summer. Hazardous fuel reduction projects and fuel breaks 
provided effective help with firefighters as they beat back 
fires and prevented them from spreading into the communities. 
But it was a tough, tough summer for us.
    As more and more of our forests die off due to beetle 
infestations across Alaska and elsewhere, this work becomes 
more urgent. We know that we need more of it. And Chief, you 
certainly know that fires have no boundaries there. What we can 
do to work together is important. I do appreciate the Forest 
Service acknowledging its cooperative work with the State of 
Alaska on the beetle infestation in its budget justification 
but I am dismayed that this request proposes to cut the overall 
program, the Forest Health Management on Cooperative Lands, and 
other state and private forestry programs. Even with the fire 
fix in place, wildfire will continue to consume a large 
percentage of the budget, so I am pleased the Forest Service 
wants to invest in building capacity to more effectively use 
technology and wildland fire management. That will help ensure 
that we are smart as we fight the fires, always keeping 
firefighter safety at the forefront.
    I think we owe appreciation to Senator Gardner and Senator 
Cantwell for their work on the wildfire technology provisions 
in the Dingell Act which was signed just about a year ago.
    Another area where I think we all know we need to do more 
is with recreation. Recreation is the single greatest use of 
our national forests, but this request does not accurately 
reflect that, in my view. In Alaska, I routinely hear about the 
demand for new recreation uses and corresponding difficulties 
in getting permits for them. I was just in Southeast this past 
week and, again, heard that repeated. Last year we held a 
hearing on recreation and heard about the need for permitting 
reform. I am still hopeful that we can work together to make 
some meaningful progress here in Congress.
    Similar to recreation, I remain concerned that agency 
initiatives to create a positive workforce are not adequately 
articulated in this request. Time and time again I have urged 
Forest Service leadership to cultivate a work environment that 
is free of harassment and retaliation. I am also concerned by 
the increasing rate of suicide among wildland firefighters. 
These issues are a priority here on this Committee. I think 
they are a priority of all of us. I look forward to hearing how 
the Forest Service intends to address them.
    So in wrapping up, I think I would be remiss if I didn't 
mention the Forest Service work on the Roadless. The agency 
states specific rulemaking for the Tongass has always been 
about reasonable access for every local stakeholder in the 32 
islanded communities in Southeast Alaska. Not just timber, 
barely timber if we are actually being honest here, but also 
transportation, tourism, mining and even renewable energy. So 
my thanks to you, Chief, as well as Secretary Perdue and all 
who are working on this Rule. I know it is not easy, and I 
think that sometimes your good work is frequently 
mischaracterized. I appreciate, again, all that you are doing 
with that.
    Let me turn to my colleague, Senator Manchin, for his 
comments.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Chairman Murkowski, and I want 
to thank you for convening the hearing today on the Forest 
Service budget request for Fiscal Year 2021. I would also like 
to welcome Chief Christiansen to our Committee and thank her 
staff for being here. I had a nice conversation with you 
yesterday, and I look forward to you coming back to Monongahela 
Forest, and we will make sure you see some really special 
areas.
    Aside from being beautiful, the Monongahela, like most of 
West Virginia's forests, is truly a working forest. It provides 
fish and game for sportsmen, timber for our mills, recreational 
opportunities for the hikers, jobs in our communities and 
serves as a watershed for four states. Forest Service lands 
across the country are similarly managed for multiple uses 
including supporting local economies, providing timber and 
conserving special areas for future generations to enjoy. Of 
course, all this can only be accomplished if the Forest Service 
has the funding that it needs. Rural communities all across the 
country support and demand our national forests, and we owe it 
to our constituents to deliver a responsible budget.
    Some of the budget this Administration has proposed would 
do just that, but much of it doesn't. For example, I am glad to 
see the steps that you are proposing to take with regards to 
firefighting. They would significantly reduce our federal 
spending and increase the safety of firefighters. On the other 
hand, I do not support the proposal to zero out funding for the 
Land and Water Conservation Fund (LWCF). I appreciate the 
special exhibit that you included in your budget showing that 
in Fiscal Year 2019 LWCF was used to acquire 19,515 acres 
specifically to enhance access for hunting, fishing and 
shooting in national forests. Just last year the Public Lands 
package was signed into law, securing permanent authorization 
for LWCF. I followed up by introducing a bipartisan bill which 
many of my colleagues have signed on to, with 52 co-sponsors to 
be exact, which will require permanent and full funding for 
LWCF at the $900 million level and remains to this day one of 
my top priorities.
    I was also proud to join many of my colleagues on the 
Committee to co-sponsor the Restore Our Parks Act. This bill 
would provide over $6 billion to the National Park Service to 
address its deferred maintenance backlog. The Forest Service 
backlog, as you know, is over $5 billion, similar in size to 
the National Park Service. I wanted to note that the 
President's budget request includes a nearly identical proposal 
except that it would direct ten percent of the funding to the 
Forest Service to address its deferred maintenance backlog. 
While I am glad to see that the Administration is thinking 
about the problem, I am very disappointed to see that, at the 
same time, the budget proposes a reduction in annual 
maintenance funding. That is something we can't have happen. 
Reductions in maintenance funding are what caused the 
maintenance backlog, and it will just grow worse. Adequate 
funding needs to be built into the budget, or we will continue 
to find ourselves in a no-win situation.
    Lastly, I want to complement the Chief on her ambitious 
goal for timber harvesting. I know that the Forest Service will 
conduct these harvests in a sustainable way as required by our 
environmental laws, and I am pleased that you are partnering 
with states to help get this work done. As a former governor, I 
can tell you that the partnerships you are forming with states 
make your agency stronger and able to do more than you can do 
by yourself.
    With that, I look forward to hearing about Chief 
Christiansen's priorities and discussing the investments that 
we need to make in our national forests. And I want to thank 
you, Madam Chairman, and I look forward to hearing from Chief 
Christiansen.
    The Chairman. Thank you, Senator Manchin.
    Chief, it is good to have you back before the Committee. We 
welcome your presentation here this morning. If you would like 
to proceed, and then we will have an opportunity for some 
questions, but thank you.

          STATEMENT OF VICTORIA CHRISTIANSEN, CHIEF, 
                      USDA FOREST SERVICE

    Ms. Christiansen. Thank you, Madam Chairman, Ranking Member 
Manchin and members of the Committee, for inviting me back to 
testify on the President's 2021 budget for the Forest Service. 
Today I will share details on the hard choices that were made 
in our budget request and focus on three key areas: our 
progress to employ tools, authorities and funding to confront 
threats to forests and support communities; the work in front 
of us and the challenges that we must overcome; and, our 
steadfast efforts and progress to champion a strong workforce 
and healthy workplace.
    We thank the Congress for approving the 2020 budget. We're 
putting funds, new authorities and tools to good use. Trend 
lines point upward as we treat more forest acres, reduce 
hazardous fuels and support rural economies. We are on track to 
meet our timber target, and so far we are outpacing last year's 
work to reduce hazardous fuels. Our shared stewardship approach 
is gaining momentum in spirit and new agreements. We're working 
across boundaries to do work at the right scale in the right 
places.
    We've signed 12 agreements with states and one with the 
Western Governors' Association. Twenty-six agreements are in 
progress. We've executed 245 good neighbor agreements in 38 
states and doubled timber volume. We aim to build on our 
progress in 2021. The President's $7.38 billion budget 
emphasizes our critical work. It focuses work to reduce 
wildland fire risk, improve forest conditions, increase access 
and contribute to local economies and it advances our shared 
stewardship approach but it does reflect tough choices and 
tradeoffs.
    In addition, we are seeking solutions and innovations to 
overcome obstacles that slow our work. We're nearing completion 
of the reforms that will ease process burdens and reduce costs. 
This spring we will finish new rules that streamline decision 
processes, meet our environmental responsibility and get more 
work done. Efforts to modernize budget processes, increase 
efficiencies in firefighting, integrate science and improve 
internal systems put us in a position to better deliver our 
mission. We also appreciate your help in addressing challenges 
of the Cottonwood ruling. It has delayed work on the ground and 
unending analysis and redundant consultation.
    We're also seeking ways to maintain a reliable 
infrastructure, an essential for groundwork and public access. 
With over 370 miles of road and 159,000, excuse me, that's 
370,000 miles of road and 159,000 miles of trails, the Forest 
Service manages the largest transportation system of all the 
federal land management agencies. These roads, trails and 
bridges make up the largest part of our $5.2 billion 
maintenance backlog. We need functioning roads and bridges to 
treat forests, fight fires and reduce fire risk. Rural 
Americans need functioning roads and bridges for their daily 
use, for outdoor activities and emergency response.
    Lastly, our mission's success depends on a highly-skilled, 
motivated workforce. We will continue our work to end sexual 
harassment and retaliation. We are making progress and are more 
resolute than ever in our commitment to provide a safe, 
harassment-free, respectful workplace. We have taken actions. 
We are improving but we most go further to permanently change 
our culture to one that is based on dignity, equality and 
respect for all. Our strong workforce is key to our aim to 
create a gold standard for public service and mission delivery. 
It ensures we make good on the investments of this Congress and 
provide the services and sound stewardship this nation 
deserves.
    Thank you. I'd be happy to answer questions.
    [The prepared statement of Ms. Christiansen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    The Chairman. Thank you, Chief, we appreciate your quick 
review here, but we will have an opportunity to fill it in with 
more questions.
    I want to start off with a couple of Alaska-specific 
issues. You have mentioned and my colleague, Senator Manchin, 
also acknowledged that the Administration is proposing its 
highest national timber target in decades here but that goal, 
as you probably know, just really doesn't extend to us in 
Alaska. We are at the lowest point that we have seen in our 
state's history since we have been logging there and among, 
certainly among the lowest in the nation here. Only 5.6 million 
board feet were sold in Alaska in 2019. This would be 0.14 
percent of this year's goal.
    Again, recognizing that this is coming from our nation's 
largest national forest. So, again, I just came from Southeast. 
I was down in Ketchikan, in Juneau, in Sitka, obviously 
discussions about Roadless but really a broader concern about 
whether or not we are going to be able to get any reliable 
volume out of the Tongass given what we are seeing.
    What steps, can you share with me, is the Forest Service 
taking to reverse this trend on the timber in Alaska?
    Ms. Christiansen. Thank you, Senator. I hear you loud and 
clear. I, too, have concerns and I've dug pretty deep into the 
uniqueness in Alaska, myself and, you know, took the time to 
come up this summer----
    The Chairman. Which we appreciated.
    Ms. Christiansen. ----and have a look myself.
    What I can assure you is that we do remain committed to a 
reliable and a continuous supply of timber for Southeast 
Alaska. It's a part of the economy and the way of life--we 
really do get that. And I'm pushing our folks to really work 
innovatively on how we can address some multiple challenges, 
quite frankly, in doing business in this island communities. 
There are--it often has some more logistical challenges. It is 
more expensive, and we need to really be smart and we need to 
be coordinated.
    In addition, there's significant market variability. I 
think you know that right now the market is very soft. The 30 
million board foot sale that was a good neighbor sale in the 
State of Alaska is on hold right now because of market 
conditions. It's compounded by some retaliatory tariffs in 
China. And, you know, there is a significant amount of 
controversy and lawsuits in Alaska. And it's not that we don't 
have those challenges other places, Senator.
    So we really looked hard on how we, as the Forest Service, 
the stewards, as you say, of the largest national forest, we 
can be a convening capacity to bring multiple interests 
together to look at the watershed, fisheries, recreation 
values, in addition to the timber values, find the common 
ground and have enough available, cleared, environmentally 
cleared, product that we can be responsive to the different 
market changes. As you know we took a large landscape approach, 
the first with the Prince of Wales large landscape project. It 
brought a lot of collaborative capacity, a lot of common ground 
by many interests were brought together. Unfortunately, it's 
been enjoined and so that's the biggest reason why we couldn't 
offer the amount of timber we intended to do. We're looking at 
the situation there and we're trying to adjust accordingly, and 
we're committed to continue to work on this to be flexible and 
meet the needs of Alaska.
    The Chairman. Well, Chief, I have not interrupted. I have 
allowed you to try to give me as fulsome a response as you can. 
But you need to know that I view this as wholly, wholly 
unsatisfactory. Instead of moving forward, instead of actually 
seeing some results translate on the ground, we are going 
backward which I didn't think possible. I don't believe it is 
because you don't support the work or the opportunity that 
remains in the Tongass, but what is happening is exactly what 
those who would seek to shut the Tongass down--it is happening 
that the industry is unable to hold on.
    You will be visited by a group of Alaskans this week who 
will not only share with you their concern about, again, this 
downward trend that has gone so low that we could not have even 
imagined that it would be this bad. But they have also been hit 
with a double whammy that you reference with regard to the 
Chinese tariffs. That came out of left field. But I think you 
have a situation here where through policies, through 
litigation, you have managed to eliminate an industry and an 
opportunity for people who live in the nation's largest 
national forest.
    In deference to my colleagues here and their opportunity to 
ask questions, I will conclude my statement, but know that the 
response that you have provided--that you are committed--
committed on paper is one thing and I have all the materials 
and the statistics, but it is not translating on the ground. It 
is not translating in these communities, and that is not an 
acceptable solution.
    Let me turn to Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman.
    Chief Christiansen, in December of last year, myself and 
the Chairman and members of this Committee, many members of 
this Committee, worked diligently to enact a two-year extension 
on the Secure Rural Schools program. Over 290,000 West 
Virginians really depend on that. They sent me letters. They 
were excited. But even though we provided the funding, the 
money has not been dispersed. What should I tell them? When 
will they get this money? And why is it taking so long to get 
it out the door?
    Ms. Christiansen. Senator Manchin, we appreciate your 
leadership on Secure Rural Schools. It really does make a 
difference across the country in many of these rural counties 
with public lands.
    We are working, top priority----
    Senator Manchin. It usually goes out in February. It 
usually goes out, the money goes out in February.
    Ms. Christiansen. Yeah, it will be out before the end of 
March. I can guarantee you that. And I have asked my folks to 
step it up, top priority, to get it out.
    Senator Manchin. What slowed it up? Is there anything that 
we can do to prevent this? Because we have a two-year 
extension, we don't want this to repeat itself next year.
    Ms. Christiansen. You know, in the finance part of the 
Federal Government, I'm not the expert. I will get back to 
you----
    Senator Manchin. We will be happy to work with your--you 
have to have somebody that works at OMB, I am sure, who is 
connected with OMB on this?
    Ms. Christiansen. Sure.
    Senator Manchin. If you can give us the person, your 
contact, on behalf of all of us that rely on this----
    Ms. Christiansen. Yes.
    Senator Manchin. ----we are happy to work with you.
    Ms. Christiansen. Well, we'd be happy to work with you if 
there's any----
    Senator Manchin. So we should tell, basically, our 
constituents back home--for any of you all that have this type 
of funding--that it will be a month late, 30 days late, 
probably.
    Ms. Christiansen. Or less.
    Senator Manchin. Or less, okay.
    Second thing then, speaking about royalty. The budget 
proposal includes a $5 million increase for your communication 
sites program. It says the funding would be used for providing 
broadband access to rural communities, specifically in areas 
where there is little or no capability. There is not a state 
that is probably affected more than my State of West Virginia 
that has rural areas that have no connectivity whatsoever.
    I guess I would ask how, with the little bit of money you 
have there, how are you going to select the areas for which you 
are going to disperse this?
    Ms. Christiansen. Yeah, I really appreciate your question 
and your leadership on rural broadband. As you know, this is a 
high priority for Secretary Perdue and all of USDA. Just to 
clarify what this--on the numbers it looks like a bump up and 
it is because it's a request for the fees that are paid from 
these communication--to establish, to get permits on these 
communication sites for the agency to retain them so we can 
provide better service, better response times for those 
communication sites.
    Senator Manchin. So you are not selecting new sites at all? 
You won't be selecting new sites?
    Ms. Christiansen. Yeah, we don't select sites. That's the 
private sector comes to us and asks to establish a site----
    Senator Manchin. One thing I would make you aware of is 
their maps are usually wrong. We have proven through FCC that 
the FCC maps are wrong, what these providers are telling you 
they are covering and they are not covering. So, please, if you 
will, work with us on that. We will give you the accurate maps.
    Ms. Christiansen. Absolutely. We----
    Senator Manchin. We are urging FCC. There is $20 billion 
going out the door this year. They are probably expediting it 
because of elections, and there are going to be a lot of rural 
communities that are going to be left behind because the maps 
have not been updated. We are going to get screwed again.
    Ms. Christiansen. Yeah, again, it's a top priority for 
USDA, and we'd be glad to work with you on that.
    Senator Manchin. My final question is going to be this. 
According to the budget proposal, the Forest Service is 
preparing to publish a revision of regulations for locatable 
minerals in October. The current regulations apply to hard rock 
mining operations which, you know, have not been changed since 
1872 and very little has been done. With that being said, there 
are no royalties paid to the American public whatsoever for the 
resources they own.
    Are you suggesting and working toward making those changes 
that we should be making here in Congress, supporting the 
changes that need to be made, not only for the royalties, but 
also for how it is mined and for the environment and how it is 
protected, the same as we do in coal and other extractions? For 
some reason hard rock has been left off the table. It has been 
protected.
    Ms. Christiansen. Yeah, there's a rich history on the 
mining laws.
    Senator Manchin. It is rich for the companies that do it. 
It is not rich for the American taxpayer.
    Ms. Christiansen. Sorry, wrong word I used, yes. There's 
significant history on the mining laws and I'd be, we'd be 
happy to work with you on that, Senator. I really appreciate 
your questions.
    Senator Manchin. Well, I would like to know from your 
office and your department, basically, how many active permits 
we have, how many prospective permits that are in a queue, if 
you would.
    Ms. Christiansen. We have hundreds, but we'll, for sure, 
give you the numbers.
    Senator Manchin. Yes--if they identify it, they submit it 
to you, and you give them the permit, and then we get nothing 
in return. I would like to know where we stand on that.
    Ms. Christiansen. Well, it's complicated that, you know, 
the subsurface estate, most of it is BLM and we manage the 
surface. It's split estates and--but it depends on where we're 
at----
    Senator Manchin. Yes.
    Ms. Christiansen. ----in the U.S.
    Senator Manchin. You all are very much involved with that, 
I am sure.
    Ms. Christiansen. Yes.
    Senator Manchin. Okay, thank you.
    The Chairman. Thank you.
    Senator McSally.
    Senator McSally. Thank you, Chairwoman Murkowski.
    Chief Christiansen, good to see you again. Thanks for your 
continued work in this position as well as your service to the 
State of Arizona as our State Forester before you came to the 
Forest Service.
    When we spoke at this hearing last year you committed to 
working with me to update Region 3 forestry guidelines to make 
sure that Phase 2 of Arizona's 4FRI initiative is a success. 
Shortly after the hearing I introduced my bill, the 
Accelerating Forest Restoration Act, which laid out very 
concisely the top asks from the 4FRI stakeholders to make the 
project more efficient and economical. The Ecological 
Restoration Institute at NAU, Northern Arizona University, has 
been a leader in developing effective forestry policy and 
convening stakeholders to ensure policies get implemented. They 
recently released a progress report on modernizing 4FRI 
implementation. It acts as both a report card on how well the 
Forest Service has done in implementing the reforms laid out in 
my bill and as a guide to what still needs to be done. It 
should be required reading for anyone involved in 4FRI, and I 
want to make sure you have a copy and also, Chairwoman, I would 
ask unanimous consent this be added to the record.
    The Chairman. It will be included, thank you.
    [4FRI Progress Report follows.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator McSally. Right, thank you.
    I will be following up with some questions for the record 
on detailed updates on the status of implementing the 
stakeholder requests, including branding requirements for low-
value timber, streamlining truck weigh-ins, increasing weight 
limits and extended deck drying times, all of which you are 
familiar with.
    But I want to turn to focus on one of the most critical 
components of making 4FRI work, both in terms of the economics 
and improvement of the forest health and that is biomass 
removal. When it comes to large forest thinning projects like 
4FRI, do you agree that the biomass removal, the disposing of 
large piles of small branches of leftover slash, is one of the 
biggest challenges?
    Ms. Christiansen. Yes, I do, Senator.
    Senator McSally. I appreciate that the Phase 2 RFP has a 
biomass removal mandate in it, but these types of requirements 
on other projects have scared away industry due to the huge 
costs involved. Could you just share what do you think the 
options are for removing wood biomass besides openly burning 
many metric tons of slash piles in Arizona's forests? Does the 
Forest Service intend to overcome previous challenges to 
biomass removals in a different way in this next phase of 4FRI? 
I just wanted to get your thoughts on that.
    Ms. Christiansen. Yeah, that's a great opener for, you 
know, the bottom line is the aggressive work we and others are 
doing to find markets for that biomass. It's not economical as 
you well know.
    Senator McSally. Yes.
    Ms. Christiansen. Just to remove it. To burn it all and put 
smoke in the air and we are working on multiple fronts, our 
forest products lab, our wood innovations work on a marketplace 
solution to biomass.
    Now, in the meantime, 4FRI has been really a leader in 
teaching us this difficulty we have in how much of viable 
timber versus how much biomass and how we bring the right 
proposal forward of what the requirements are that meets a 
business model that's reasonable.
    Senator McSally. Yes, is there, I mean, as you know, the 
market-based solution is the challenge, right? Because slash 
and unmarketable trees can be supplies. They can be used to 
generate electricity, but it is just not lucrative as far as 
being cost-efficient compared to other modes. How do you 
address any of those market-based issues when it comes to even 
using it for electricity generation?
    Ms. Christiansen. Yeah, electricity generation has, you 
know, it doesn't, it just doesn't attract, in many cases, the 
dollar return for the milliwatts produced when you have 
significant haul costs. But we're looking far beyond just 
electricity generation, torrefied wood, it's a way to, 
basically a replacement for coal. Nano technology, cellulosic 
nano technology, we can build car frames and, you know, put in 
concrete to lighten the load. There's multiple other options 
that we are getting near to some. We have the technology. How 
we scale it up to be marketplace is the next bridge that we're 
working on.
    Senator McSally. Okay, thanks.
    The Phase 2 RFP has been delayed multiple times. Now that 
it is out for review, the due dates and contract award dates 
have been delayed multiple times also. Now some of the delays 
are largely due to listening to stakeholders and improving the 
RFP which is commendable, but it is important that we adhere to 
an aggressive timeline. Can you just share on the record when 
you expect the contract to be awarded at this point?
    Ms. Christiansen. Yeah, you're exactly right. I was 
personally involved in the decision to extend it based on 
really informative feedback with potential bidders. And the 
proposals are due in May. It's our top priority to evaluate in 
the summer months and we will award in early fall and it's a 
priority stay on that timeline.
    Senator McSally. Okay, thank you. I am over time.
    Ms. Christiansen. You're welcome.
    The Chairman. Thank you, Senator.
    Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Chief, according to a recent USGS report about the 
economics of forest restoration across the West, for each 
million dollars that we invest in landscape-scale forest 
restoration programs, communities actually see more than $2.2 
million in economic output. Not only do these projects bring 
jobs and livelihoods to rural economies, but they protect our 
drinking water, and they decrease the risk of wildfire not only 
on those lands but in the adjacent communities. Yet in this 
budget request, you have zeroed out the collaborative forest 
landscape restoration program, zero.
    For a little context, this program has treated roughly 
55,000 acres in recent years on the Santa Fe National Forest 
alone. Oftentimes, this is several times more, from two to four 
times more acres, than our timber program touches. Budgets are 
a statement of priorities and values. What I want to know is 
why this Administration doesn't value this critical restoration 
tool more?
    Ms. Christiansen. Senator, I really appreciate how you 
framed that question because you're absolutely right, the 
multiple benefits of forest restoration, what's created in 
communities, this nation, the nation's forests provide over 60 
percent of the drinking water for the U.S. It really is 
profound.
    With that said, as I said in my opening statement, some 
difficult choices and tradeoffs were made in this budget 
submission and we are committed to the collaborative spirit of 
shared stewardship, investing in priority work to get outcomes 
that are important for the particular states and communities in 
these forest communities. And I'd be happy to work with you as 
you all move forward.
    Senator Heinrich. I just don't see a zero as a tradeoff. I 
would point out that businesses in the State of New Mexico are 
now funding more of this kind of landscape scale restoration 
than the entire Federal Government proposal in your budget. 
That says something about priorities and values.
    And in addition, I was dismayed to see the budget request, 
yet again, cuts the Land and Water Conservation Fund to nearly 
nothing, $14 million in total, zero for the Forest Service. It 
actually takes $8 million in existing projects away from the 
BLM. And I can't tell you how popular that program is with the 
entirety, practically, of my constituency. It is the one place 
where you get sportsmen, conservationists and outdoor rec 
enthusiasts all on the same page because it is the most 
effective program for creating access and protecting habitat. I 
don't understand why access and habitat are not priorities in 
this budget.
    Ms. Christiansen. Yes, I do hear you, Senator. This 
Administration, again, it took some really prioritized focus 
and acquiring new lands was not the priority because we need to 
take care of the lands, the roads and the systems that we have 
and that was the choices and tradeoffs that we made.
    Senator Heinrich. Oftentimes, what that means is that there 
are public lands that the public cannot access and we have 
heard a lot of rhetoric out of this Administration about 
access. LWCF is the tool to move that from rhetoric to reality 
on the ground.
    I am down to a minute here, so I want to get one last 
question in and this relates to what Senator Manchin raised 
around the maintenance backlog. We have a number of campgrounds 
in New Mexico that have been closed for years. One was damaged 
in a 2012 fire and still has not reopened. I don't think that 
is unique to my state. With the current funding structure, how 
long would it take the Forest Service to work through its 
maintenance backlog and get some of those campgrounds reopened?
    Ms. Christiansen. You know, for our roads and trails, and I 
can get back to you specifically on the campground piece, but 
for our roads and trails, we would need $445 million per year 
for the next ten years in addition to the, what's appropriated 
to clear the backlog.
    Senator Heinrich. And what is the number this year in your 
budget?
    Ms. Christiansen. The number this year, I can get--it's 
around, let me get that for you. It's $453 million.
    Senator Heinrich. Thank you.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Madam Chair. Thank you, 
Director Christiansen for being here today and your service 
today.
    You may have addressed this already in previous questions, 
I apologize for repeating a question if it was already asked. 
About ten months ago we talked about the Aerial Firefighting 
Use and Effectiveness Study. A year ago, we said that it would 
be coming soon. The year before that we said it would be coming 
soon. The year before that we said it would be coming soon. Is 
it coming soon? The year before that it was coming soon.
    Ms. Christiansen. Yes, Senator, that is deserved, that 
question is and I guarantee you it is coming soon. I 
understand----
    Senator Gardner. But what is taking so long?
    Ms. Christiansen. Yeah, you know, I'd be glad to come in 
and give you a really detailed briefing, but let me give you 
the high points. We completely had--didn't know what we didn't 
know on the complexity of this kind of study. This was going on 
while we were going to the next generation of air tankers. Of 
course, we have to put the remote sensing devices on these air 
tankers. The questions, the performance measures, the data 
standards, the----
    Senator Gardner. Well, let me just stop you. So when you 
say coming soon, is that next year I get to ask you again or--
--?
    Ms. Christiansen. No, this spring.
    Senator Gardner. This spring.
    Ms. Christiansen. This spring, guarantee you.
    Senator Gardner. Alright, so before June?
    Ms. Christiansen. Yes, sir.
    Senator Gardner. Okay, thank you.
    Over the last several years the Forest Service has seen a 
40 percent turnover, as is my understanding, in staffing and 40 
percent of the non-fire workforce has been either converted to 
fire workforce or left the service altogether. Given this 
current staffing situation, I would like to have a conversation 
about what we are doing to fill in the gaps in non-fire 
staffing, like law enforcement and fire prevention, and I want 
to talk a little bit about what is happening in my own state.
    In Summit County, Colorado, a population of 30,000 people, 
they have now, they wrote a letter to me last year. They passed 
a tax increase on themselves in the county, over $1 million a 
year toward a variety of wildfire prevention and mitigation 
strategies, including paying for six--they themselves, the 
county, the people of the county, are taxing themselves to pay 
for six seasonal forest service staff to conduct fire 
prevention work on the Dillon Ranger District of the White 
River National Forest, the busiest forest in our country. One 
full-time, year-round, USFS, Forest Service employee working on 
fire mitigation projects as Forest Service contractors 
conducting fire mitigation timber cuts over time for fire 
prevention patrols on Forest Service land by Summit County 
Sherriff's office and fire mitigation projects on Summit County 
open space adjacent to Forest Service land. Now that we have 
the budget cap adjustment in place, is the Forest Service 
looking to address the situations like the one I just described 
in Summit County and throughout the State of Colorado?
    Ms. Christiansen. Yeah, we really appreciate that kind of 
shared services collaboration. What the community is doing to 
really step in and help fill those gaps, it's really 
significant.
    In regards to what we call the fire funding fix, we 
absolutely appreciate the work of Congress that it stabilized 
our budget so we aren't continuing to put more into fire, but 
it really is the process of budget development and 
appropriations process to increase the funding for those 
services. So we really are looking forward to working with you 
on that.
    Senator Gardner. Will you be filling the gaps in the non-
fire staffing that I talked about in both law enforcement and 
fire prevention?
    Ms. Christiansen. It will fill the gaps to the extent that 
we get appropriations to do so, Senator.
    Senator Gardner. This will allow us so that we don't have 
to have local counties doing tax increases to do the job of the 
Forest Service?
    Ms. Christiansen. Yes, Senator.
    Senator Gardner. Thank you.
    Obviously, I remain concerned with the number of air 
tankers under contract with guaranteed availability to support 
efforts around the country. I know there is a private study 
that is being released this week which examined the Forest 
Service's wildfire data between, I think, 2015 and 2019 showing 
that when a large air tanker, a very large air tanker, is 
deployed against a fire in the first four to six hours, fires 
lasted an average of less than one day. But for far too many 
fires in this country, that has not been the case, oftentimes 
lasting 20 more days plus or significantly beyond that. 
Billions of dollars are being shouldered by taxpayers, 
businesses and the community as a result.
    We don't have the study. So without that study how are you 
justifying the number of air tankers you have come up with for 
exclusive use contracts and can you provide this Committee with 
the data informing that decision and are you confident that 
during a bad fire you are--there is sufficient air tanker 
capacity available to the Forest Service?
    Ms. Christiansen. Yes, I am confident, to answer the last 
question first, and yes, we'd be glad to give you more detailed 
information on how we really analyze those decisions.
    I can guarantee you we have them, we will have the most air 
tankers we've had in over ten years, this fire season. And 
call-when-needed is, we can put those on as we see the fire 
danger increasing, so it's not that we call 'em up and, you 
know, we have to wait two days. We call 'em up as we see----
    Senator Gardner. At a higher rate, right? That is a more 
expensive contract?
    Ms. Christiansen. Yeah, but we, at a higher rate, but only 
when we use them versus we have to pay them for a guaranteed 
amount of time. So it's a bit of an art and a science, I will 
say, on how we find the right balance to be responsive, to make 
sure we have the right resources in aerial firefighting in the 
uptick, but we're responsive with our budget and our spending.
    Senator Gardner. Thank you. I have some additional 
questions for the record.
    Thank you, Chairman.
    The Chairman. Thank you, Senator.
    Senator Wyden.
    Senator Wyden. Thank you, Madam Chair.
    Chief, it is great to have you. Let me start with the 
Wildfire Disaster Funding Act which, I think, most people 
believe is the biggest change in firefighting policy in decades 
and in effect, for those who didn't follow it, it basically 
says we are going to fight the big fires from the disaster fund 
and then we are going to liberate all that money to focus on 
prevention. We wrote it, all of us were involved in it, we 
wrote it in this room.
    My first question is, what can you tell us, because this is 
the first year of implementing this transformative law, how is 
it going in terms of being able to liberate money to get at 
this backlog that Senator Manchin and Senator Heinrich and 
everybody else is asking you about? The backlog in my state 
alone is 2.5 million acres of NEPA-ready, hazardous fuels/
prescribed fire projects. So my first question is how is it 
going in terms of the first year when we really ought to have 
new money liberated because we finally said we are not going to 
have this bizarre policy where we keep raiding the prevention 
money to fight big fires? How are we doing in terms of getting 
that money out of the disaster fund to go after the backlog?
    Ms. Christiansen. Thank you, Senator. We do continue to 
appreciate very much on--this is significant support and 
leadership on this, it was profound and it is a fire funding--
oh, thank you--[mic was off] the fire funding fix is profound 
and I do have to clarify something. So it stabilized the Forest 
Service constrained budget. So we weren't--we didn't have to, 
the ten-year average that we have to fund first with fire, that 
has been stabilized, as you know, to the 2015 ten-year average. 
So we don't have that continued erosion. That isn't very 
helpful.
    The second part of the fire funding fix was because we have 
the disaster relief account now for the big fires, the chances 
of having to borrow mid-season are, you know, reduced, 
practically won't happen. But the idea that we have gotten 
additional monies, that's what this conversation is about, that 
is the Appropriations Act. What we are doing in the Forest 
Service is to say, we're going to prioritize, we're going to be 
a good investment and the funds that this budget process, this 
appropriation process, gives us, we are going to put to good 
use and you're going to see a good investment.
    Senator Wyden. I am very much for the new money and that is 
why my colleagues' questions were good.
    Ms. Christiansen. Yes.
    Senator Wyden. I also believe that if you are no longer 
raiding prevention, you can use prevention money to hit these 
targets. I would like to ask you to provide us month-to-month 
treatment targets for reducing hazardous fuels, at least in my 
state, but I think my colleagues are going to ask as well. Can 
you do that, give us month-to-month treatment targets for 
reducing hazardous fuels?
    Ms. Christiansen. Yes, Senator, I might ask if we could do 
it quarterly because there's a little bit at play. We set 
quarterly targets is how we do it, but if you need month, we'll 
do it by month.
    Senator Wyden. Great. I think, because this is becoming the 
fire season, if we could say, the first couple of months we 
need monthly targets, and after that we will do quarterly. Is 
that agreeable to you?
    Ms. Christiansen. Okay, yes.
    Senator Wyden. Great.
    Ms. Christiansen. And I would like to just point out that 
this budget does propose a $65 million increase in hazardous 
fuels.
    Senator Wyden. I saw that. Okay.
    Second, Senator Manchin and I have been very interested in 
finding some fresh approaches to deal with prescribed fire and, 
as we always do, we talk with the Chair because we always try 
to work on these issues together. But as you know, there is a 
lot of interest in prescribed fire, streamlining the regulatory 
hurdles, developing a prescribed fire workforce. How are we 
doing on that?
    Ms. Christiansen. We are making, well, we are making far 
more progress on getting more prescribed fire done on the 
ground, particularly in the West where we need to break through 
those cultural and social barriers. In the Pacific Northwest, 
in particular, we increased our prescribed fire activity. As 
you know, in many, many of our landscapes across this country, 
fire is the number one treatment tool and we've got to keep 
increasing.
    Senator Wyden. Let me do this because I am almost out of 
time. If you could give me a written answer on the prescribed 
fire plan. Senator Manchin and I want to work together----
    Ms. Christiansen. You bet.
    Senator Wyden. ----with all of our colleagues on both 
sides.
    Last question. You might want to give this to me in writing 
because I am over my time. I am very interested, as you and I 
have talked about, in looking at new technologies in terms of 
firefighting, particularly one that I hear a lot about is the 
ability to fly helicopters at night or in low visibility. If 
you can give us a short answer, I can probably get another 15 
seconds out of my friend the Chair, but you will also give me a 
response in writing on these technologies.
    Ms. Christiansen. I will.
    The short answer is we have been, we've had night flying 
operations in Southern California for the last handful of 
years. We learned a lot. It is an investment, but we have some 
known, very known capabilities in the right place to use night 
flying operations.
    Senator Wyden. Great.
    Thank you, Madam Chair.
    The Chairman. Thank you.
    Senator Daines.
    Senator Daines. Thank you, Madam Chair.
    Chief, good to have you here and thanks for testifying on 
the Forest Service budget. It was also really good to be 
discussing these issues at that Forestry Forum we had two weeks 
ago and our meeting yesterday with you and your team and thanks 
for being here again today. I was encouraged to find the Forest 
Service budget prioritize wildfire suppression, shared 
stewardship principles, increasing efficiencies and set a very 
quantifiable target of timber output target of four billion 
board feet.
    However, if that is the good news, here is one of my major 
concerns. I believe it is unacceptable that the Administration 
continues to eliminate funding for the Land and Water 
Conservation Fund, known as LWCF. LWCF is a critical tool in 
Montana to protect and enhance our public and recreational 
access to our public lands. In fact, I, along with 52 other 
Senators, have co-sponsored bipartisan legislation to make the 
LWCF funding permanent and will continue pushing for full 
mandatory funding for LWCF in working across the aisle with my 
colleagues on getting our important bill across the finish 
line. Unfortunately, there are not too many things that unite 
Congress anymore. As we saw earlier last year, public lands do, 
and I think this is one of the pieces of legislation that will.
    Sixty-two percent of Montanans stated that wildfires 
threatening homes and property are a serious problem. We see 
the effect of that certainly breathing the smoke in the 
summertime. This should come as no surprise as there are 1.6 
million acres in the wildland urban interface that are at high 
risk of wildfire. I do appreciate the budget prioritizes public 
safety by requesting robust funding for wildfire suppression 
and important vegetation management; however, it is litigation, 
litigation from fringe groups, that continues to delay time-
sensitive wildfire risk reduction projects.
    There is one lawsuit currently jeopardizing over 130 
projects in Montana alone. This particular case is one of many 
copycat lawsuits that follow the Ninth Circuit's Cottonwood 
decision. This court decision established a new procedural 
requirement that amounts to a mere paperwork exercise with no 
benefit. Even the Obama Administration agreed that this case, 
and I quote, ``had the potential to cripple forest 
management.'' That is right out of the Obama Administration. We 
were working this when he was President, and they were spot on.
    The impact of this case has tied up hundreds of projects 
damaging the health of our forests and threatening jobs. In 
fact, just last month, in Townsend, Montana, Broadwater County, 
70 Montanans were laid off when RY Timber was forced to close a 
mill citing chronic timber supply challenges exacerbated by 
litigation. The irony is, as you stand at that mill, you are 
looking at thousands, tens of thousands, hundred thousands of 
acres of forested land and our public lands, our national 
forests, and we can't go in to do some commonsense thinning 
that reduces the risk of wildfire and keeps these folks 
employed. As with any mill closure this will surely have a 
ripple effect in the community. These are not prosperous 
communities. These are important, good paying jobs and the 
families are devastated.
    My question, Chief, is can you explain the impacts of 
Cottonwood and do you believe there is a conservation benefit 
to this new requirement?
    Ms. Christiansen. The consequences are severe, I will say 
that up front. It's--we are committed to do our environmental 
and our Endangered Species Act due diligence consultation. But 
this Cottonwood decision is duplicative in that it requires us, 
anytime there's any new information on a forest land management 
plan, that's the general plan that we lay out for every 15 to 
20 years, and it requires us to consult on any new information. 
When we are going to consult on any project we're going to 
directly do on the ground. So, it's duplicative. It takes 
numerous resources away from getting work done on the ground, 
but worse, it just prevents the work getting done, the 
resiliency in the forest to protect communities and the way of 
life of public lands in Montana.
    Senator Daines. How does litigation impact wildfire 
reduction project and overall, the visitor's experience to our 
national forests?
    Ms. Christiansen. Well, it just prevents us from getting 
the critical treatments on the ground because we're tied up in 
litigation. We're enjoined. We can't move forward and 
recreationists have to live with smoke. Communities have to 
live with smoke. The economic prosperity of communities are 
compromised, as you just talked about, with RY in Townsend. 
It's a significant rippling impact and it's not just in Montana 
anymore, it's in the bigger footprint of the Ninth Circuit.
    Senator Daines. Yes, and I am out of time. My last point, 
and I will wrap up here, is that my wife and I are avid 
backpackers, like a lot of Montanans are. We are always, during 
the August recess here, leaving DC and getting to spend time in 
the high country in Montana. We literally have to watch the 
fire reports to make sure we can get into some of the areas in 
Southwest Montana to make sure they are open--back to the 
impact of access to public lands.
    Thanks for your testimony.
    Ms. Christiansen. Thank you.
    The Chairman. Thank you, Senator Daines.
    Yes, it is, Senator Hirono.
    Senator Hirono. Yay, thank you.
    Chief, as you know, biosecurity is of great importance to 
Hawaii and the Pacific region and, of course, by protecting our 
forests and environment from invasive species, we are also 
reducing the likelihood that these pests make their way to the 
mainland. Unfortunately, our current biocontrol facilities in 
Hawaii that are utilized by both the state and Forest Service 
are outdated and we are in need of a new state-of-the-art, 
biosecurity research facility jointly owned and managed by the 
state and federal partners, including the Forest Service, that 
would allow our researchers to test different biocontrol 
methods for combating some of the world's worst pests.
    The state has allocated some $180,000 for planning and 
scoping the possibility of a facility but federal support is 
currently needed, and I would like your commitment to work with 
me and my staff in exploring the possibility of a new 
biocontrol research facility in Hawaii because we are the 
invasive species capital of the country.
    Ms. Christiansen. Gateway, how's that?
    Senator Hirono. Gateway, yes, that's fine.
    Ms. Christiansen. We appreciate your leadership on this and 
Hawaii's stance on this, and I'd be happy to work with you to 
see what we can do.
    Senator Hirono. Thank you.
    I also want to thank you for the interagency cooperation 
that has gone into helping Hawaii combat a pathogen that has 
been devastating the native ohia trees called Rapid Ohia Death. 
You mentioned that our forests account for over a vast majority 
of the nation's drinking water and that is certainly the case 
with our ohia forests because they are part of watersheds. 
Money from the state and private forestry account has been 
critical to helping our folks on the ground in Hawaii address 
Rapid Ohia Death (ROD). I am disappointed to see that the 
President's budget makes severe cuts to our program that is so 
important to Hawaii, and I will work with my colleagues in 
Congress to see that the program is funded more adequately.
    Along those lines, I appreciate your support for a forest 
pathologist at the Institute of Pacific Islands Forestry, but 
Hawaii is in desperate need of that position becoming permanent 
so they can support our state biosecurity plan and help address 
existing and emerging pests and pathogens such as Rapid Ohia 
Death and support for this position would be leveraged with 
funds from the University of Hawaii and the State of Hawaii. I 
would like your commitment to work with me and my staff to see 
about establishing a permanent, jointly-funded forest 
pathologist in Hawaii.
    Ms. Christiansen. We'd be happy to work with you on that. 
We have some great scientists out there on biocontrols and 
other things and it's--there's a great multiagency effort and 
we are committed to be, remain a part of that.
    Senator Hirono. Good.
    The President's budget proposes closing the Pacific 
Southwest Research Station which oversees research and 
development in California, Hawaii and the U.S.-affiliated 
Pacific Islands and merging it with the Pacific Northwest 
Research Station. And while the Forest Service knows that this 
closure will not result in the cessation of research in that 
region, it is not clear what this proposal specifically means 
for the future of the Institute of Pacific Islands Forestry, or 
IPIF, in Hawaii. Will you have experts on your staff brief my 
staff on any impacts of this proposed closure on the Pacific 
Islands as well as the future that the Forest Service envisions 
for IPIF?
    Ms. Christiansen. Absolutely. I have been out to IPIF and I 
have personally seen how integrated they are, and we'd be happy 
to work with your staff.
    Senator Hirono. Thank you.
    You noted that you are making progress on the issue of 
preventing sexual harassment and retaliation in the Forest 
Service and there were a number of recommendations made in the 
IG report because this is an ongoing problem for the Forest 
Service, and you did say that while you are improving that it 
takes time to improve the culture. I was curious to know, 
seeing the list of the report, where on January 5th, 2020, the 
agency, your agency, closed about 88 percent of the 2,215 cases 
of harassment reported since August 2017. I realize that you 
are focusing on your hiring methods, the kind of questions that 
you ask of your potential hires, you are really focusing on the 
need to report these instances and the training and, of course, 
the investigation of this kind of misconduct. But I am curious 
to know, who is doing the harassing and who are the victims of 
the harassment? I take it they are all employees. So is it your 
male employees who are harassing the female employees? Is that 
the usual circumstance?
    Ms. Christiansen. We can get you more specific 
demographics. There's, you know, harassment is, it knows no 
boundaries. I would say the preponderance is between gender, 
but it is not only--we have specific demographics on what kind 
of lines of work and we're studying that and looking at the 
trend lines and it's a bigger conversation than now but I'd be 
glad to get back to you with more information.
    Senator Hirono. Yes, so I am interested in how, who is 
actually, you know, doing the harassing, what you are doing in 
terms of diversifying your employee base and all of those kinds 
of aspects.
    Ms. Christiansen. I'd really love to come visit with you.
    Senator Hirono. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Chief Christiansen, great to see you. Thank you so much.
    Obviously, no one can argue that nationally and 
internationally the fire seasons are with us everywhere from 
Australia to Alaska, so a lot is going on. One of the things I 
am pleased to see is there is $15 million in the President's 
budget to implement the Technology Advancement Act that Senator 
Gardner and I pushed through. That is everything from GPS 
locators to real-time fire information. We did a great 
demonstration of this in Spokane that I loved. We were at a 
fire station, literally, in the garage of the fire station, and 
they lit a can outside. But you couldn't see the fire, it was 
hidden. But the heat detection sensor that we had, an aerial 
sensor, could detect it and showed it on our monitor. There was 
a ``hot spot'' and we got to get right on it.
    We are just such a firm believer in this technology. What 
can we do now to speed up the deployment of this technology? 
CBO had estimated that you could do the whole Wildfire 
Management Technology Act for just $8 million. So we feel like 
a lot can go forward this fire season. What can we get done 
with that money?
    Ms. Christiansen. Yeah, the money is really appreciated and 
it, you know, to whatever levels Congress does choose to fund, 
we stand ready to be able to implement. Now, you know, funding 
it is the highest priority on being able to have the resources, 
but we have to make sure we invest in the right way. So we are 
moving out now, regardless of whether these funds come forward 
or not, on doing some pilot tests around these resource 
trackers.
    The technology is changing, you know, weekly and so we're 
working interagency in three, we have three different scopes of 
questions in these three major pilots across the country with a 
incident--a command team to 100 percent of the fire personnel 
in another region, across agencies and there are different test 
types so that we can stand ready should we get the funding to 
deploy. We know the best investment and the best operating 
procedures, and we're going to use existing funds to move that 
forward.
    Senator Cantwell. Well, I appreciate that and I would think 
that then when you look at the maps for what we get in a few 
months here and further into the early summer, you will look at 
that and make technology use projections based on where you 
think hot spots are or the biggest threats or----
    Ms. Christiansen. Well, on the resource trackers that's 
more where we are considering what kind of fire activity we 
think we'll have in those areas, but it's capability, it's the 
readiness of the cross, you know, the multiple agencies are 
affected. So we're deploying that now because it's a little bit 
more of a test that we need to get stood up now.
    Senator Cantwell. What about the GPS trackers for 
firefighters? That seems very easy to deploy and----
    Ms. Christiansen. Well, that's what I'm talking about, the 
tracker, the resource tracker, the GPS tracker.
    Senator Cantwell. Okay, so that is just what--just that 
resource. Okay.
    Ms. Christiansen. Yes, yes. And then we're, you know, we've 
been working on----
    Senator Cantwell. I mean, that is very low cost, right?
    Ms. Christiansen. I wouldn't call it low cost with the 
amount of infrastructure that you have to put in place and the 
training and the capacity and maybe in the, you know, if we're 
talking interagency, we're talking 15,000 fire personnel and we 
put it on our, what I call, our militia that do do fire, 
there's another 10,000. So it's not low cost.
    Senator Cantwell. Right, but obviously we are looking for 
people when they are deployed not when they are--we have enough 
other problems, right?
    Ms. Christiansen. Yes.
    Senator Cantwell. So we are just looking for the deployed 
individuals----
    Ms. Christiansen. Absolutely.
    Senator Cantwell. ----and tracking them.
    Ms. Christiansen. But in a high fire season, interagency, 
we can have 26,000, 27,000 folks deployed.
    Senator Cantwell. So, okay. And all at the same time?
    Ms. Christiansen. Yeah and peak parts of seasons, oh, yes. 
I mean, that's getting up there and breaking the record. We're 
usually around, depending on what kind of fire activity, we're 
usually, you know, anywhere from 5,000 to 20,000 in the height 
of a fire season but it's pressed close to 30,000.
    Senator Cantwell. Well, I would hope, you know, obviously 
we have lost Northwest people in some significant fires over 
the last two decades.
    Ms. Christiansen. You bet.
    Senator Cantwell. And we definitely would also like to see 
the weather forecaster, smoke forecasters, on the ground in 
those situations because we think that is critical as well.
    Ms. Christiansen. Yeah, Senator, if I could just quickly 
interrupt on the wildfire modernization piece. Our researchers 
are ready to deploy an app that will, you know, every 
firefighter has a smartphone that would give real-time escape 
routes and safety zones on their app as they move about. So 
there's all kinds of other capacities with this that we're 
growing.
    Senator Cantwell. Well, we will look forward to, obviously, 
being large and vocal advocates for this budget----
    Ms. Christiansen. You bet.
    Senator Cantwell. ----and doing everything we can to help 
you get these things deployed. We think the challenge just 
grows every fire season, so we definitely want you to have 
every tool and are glad that you are going to embrace the 
modernization with or without this $15 million, and clearly we 
want to get you those resources.
    Ms. Christiansen. You bet.
    Senator Cantwell. Thank you, Madam Chair.
    The Chairman. Thank you, and Senator Cantwell, thank you 
for what you have been doing on that technology front. We 
appreciate it.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Chief, welcome. It is good to see you and your team here 
and your staff, and thank you for all the good work that you 
do.
    I want to echo the comments that were made by the 
Chairwoman along with my colleagues and Senator Cantwell. From 
Nevada, wildfires--whether they are in the forest or 
rangeland--are a big issue for us as well. What I would like to 
talk to you about is local cooperative fire agreements.
    Ms. Christiansen. Oh, yeah.
    Senator Cortez Masto. Yes. I have had conversations at a 
wildfire summit in my state, talking with our state and local 
folks and, as you know, the agreements between the Forest 
Service and our state and local governments are to aid and 
mutual assistance and resource transfer for local and regional 
wildfires. But with the intensity of the fires we see, now 
longer fire seasons are in sight, we literally, in Nevada, a 
fire is occurring every month now. We are seeing, 
unfortunately, that happening.
    Can you talk and discuss the limitations you are 
experiencing with these cooperative fire protection agreements 
and what long-term solutions should we be considering to 
improve the relationships? And let me give you an example. I 
think the Forest Service staff wrote an April 2019 issue 
summary noting the limits current law provides these agreements 
and the potential need to reassess how these are implemented. 
Maybe I am catching you off guard and if you can't respond to 
that now, I would love a follow-up on if there is something we 
need to do to address these local agreements.
    Ms. Christiansen. Yes. I can address it generally. I want 
to make sure what part of limitations you're referring to. So 
that we'll, we'd be happy to follow up on that, the particular, 
because there could be a couple ways this, these limitations 
are.
    Let me just say that even the U.S., who is coveted around 
this globe, that we have the world's best wildfire response, we 
cannot do it unless we have capacity at the local, the state 
and the federal level. So with my background, 30 years in state 
government that tended to those local arrangements, I'm 
steadfast and that is how we have built this system. So all 
parts need to function. The limitations, I believe, are in how 
we deploy the local resources way outside of their 
jurisdiction.
    Senator Cortez Masto. Correct. That is correct.
    Ms. Christiansen. Okay, that's the part of the limitation. 
And you know, how we help each other within their jurisdictions 
or close to their jurisdictions, is solid. But that there's 
interpretations about the Federal Government being the banker 
to, you know, send people all over is what we're getting audits 
about. And so, we'd be glad to, you know, do some more briefing 
about that, understanding and would love to have your help on 
how we look at how we keep a continuous firefighting effort 
across this nation.
    Senator Cortez Masto. Thank you. What we will do is look 
forward to a follow-up with maybe you or your staff to talk a 
little bit more about it.
    Ms. Christiansen. Yes, absolutely.
    Senator Cortez Masto. Thank you. I appreciate that.
    In Nevada, our Air National Guard is one of the, I guess, 
for lack of a better word----
    Ms. Christiansen. MAFFS.
    Senator Cortez Masto. MAFFS, our Modular Airborne Fire 
Fighting Systems, that is happening and we are very proud of 
it. They come and talk regularly. Thank you for the 
partnership. I have been there. I have toured it. I have seen 
not only what they bring to the wildfire suppression, not just 
in Nevada, but in the region, right?
    I guess what I am hearing, and I have concerns about this, 
so I would love for you to address this. One, can you comment 
on the impact that the National Guard's current C-130H aircraft 
has had on firefighting efforts? Then I am hearing there is a 
potential that, as you know, our Air National Guard is looking 
to migrate to the C-130J and they are very excited about it, 
but now we are hearing funding for that aircraft may be 
diverted to the border wall and not go toward the newer 
aircraft with the newer technology that will help with this 
aerial firefighting throughout the region. Could you address 
that and what you are hearing and the concerns that we are 
hearing from our Air National Guard in Northern Nevada?
    Ms. Christiansen. Yes, thank you, Senator.
    I can say that the MAFFS capability, the mobile air frames, 
are the absolute important, we call it the surge capacity, when 
the private sector, we've maxed them out and we need additional 
capacity. MAFFS have time and time again been the critical 
resources that we call on. We love the partnership.
    I cannot speak to the DoD funding, but I can say the Hs, 
the 130Hs are capable. The 130Js are a more modern platform 
that give us more options and effectiveness in fire response.
    Senator Cortez Masto. Thank you. I appreciate that. I look 
forward to following up with your staff as well.
    Ms. Christiansen. You bet.
    Senator Cortez Masto. Thank you.
    The Chairman. Thank you.
    Chief, I mentioned in my opening statement that while I 
appreciate the good efforts that the Forest Service is doing as 
you are working through this Roadless Rule and its application 
in Alaska, I mentioned that the effects of lifting it, I 
believe, have been misconstrued. I would ask you to speak, 
specifically, to what you believe the effect of lifting the 
Roadless Rule will actually be projected to have on the Tongass 
timber program.
    And I will put it into context. We recognize that the DEIS 
projects that a full exemption would add approximately 185,000 
acres to the timber base for future timber production. There 
are some who, again, are opposed to any level of timber harvest 
in the Tongass and they are saying this is what will be open 
and available, and yet Forest Service projections are that just 
18,000 of those acres would be harvested over the next 100 
years.
    I am trying to put it into context. As I have been with 
folks in the Southeast this past week, I was reminding them 
that with the designations that are already in place, you have 
a full 80 percent of the Tongass that will never, ever, ever, 
ever be available for harvest. Can you speak to what the effect 
actually will be on the Tongass timber program?
    Ms. Christiansen. I can speak to that, yes, of course. And 
let's just put into context that the Tongass is far more than 
just timber. It's a multiple use forest. It provides many, many 
services.
    The Chairman. Tourism, access for renewable----
    Ms. Christiansen. Energies.
    The Chairman. ----energy projects.
    Ms. Christiansen. Systems.
    So that's the context and timber is a piece of it and 
there's--so that's one slice of the analysis.
    The Chairman. Right.
    Ms. Christiansen. And what the Roadless Draft Environmental 
Impact Statement looks at is where it is available. It doesn't 
project what would happen in a harvest. We are still bound by 
the Forest Plan, and then the Forest Plan guides the amount of 
harvest and then, of course, each particular activity needs to 
be analyzed and the amount of harvest----
    The Chairman. So it is access, it is access.
    Ms. Christiansen. It's access, Senator.
    The Chairman. It is reasonable access to all of the 
stakeholders.
    Ms. Christiansen. Of course, yes.
    The Chairman. Yes.
    Ms. Christiansen. So the Roadless Rule itself does not 
dictate timber harvest. It dictates availability only, and 
there's the Forest Land Management Plan and then specific 
project proposals that would come after that.
    The Chairman. I think this is part of the confusion. For 
timber this is really about the flexibility to make economic 
sales rather than increase harvests. Is that correct?
    Ms. Christiansen. Yeah.
    The Chairman. You want to have the flexibility so that you 
can have the sales. I mean, we spoke earlier, and you 
recognized that the Prince of Wales project and the fact that a 
great deal of time and commitment had been made for that to 
accommodate that collaborative process, and then it gets 
stalled out because of litigation. So effectively, we put a lot 
of eggs in that basket and now we are seeing the situation that 
we have on the ground which, again, is the lowest timber 
harvested in, since we have been harvesting timber at just 5.6 
million board feet. I think it is important to put in the 
context of the whole, what we are really talking about here 
with the proposal to lift the Roadless Rule.
    I also mentioned, and you raised as well, the impact of the 
China timber tariffs. Retaliatory tariff rates on spruce were 
as high as 25 percent last year. We are the only national 
forest, the Tongass is the only national forest allowed to 
export whole logs and where we are sitting and where our market 
is, Asia, is pretty critical to us.
    The irony here is that those who were told by Forest 
Service and others that you need to move away from old growth, 
you need to move to that second harvest, that young growth, 
that market, that they went out to build just happened to be a 
Chinese market. So they did everything that they were 
encouraged to do. Go find new markets. Move to a different--
move away from old growth and yet, now they are in a situation 
where they are being left without a market at all. Is the 
Forest Service looking into possibly reexamining the stumpage 
rates to offset some of the effects of these Chinese tariffs?
    Ms. Christiansen. Yes, I'm very well aware of this major 
dilemma, Senator, and we are looking at everything within our 
law, our authorities of how we can do adjustments to 
accommodate these stumps, these stumpage rates. We're 
continuously looking at this.
    The Chairman. Yes, this is a real challenge for us and, 
again, it is not something that we, perhaps, could have 
anticipated. But again, it is just the height of irony that 
those who felt they were being pushed out of one area did as 
was proposed and now they are sitting here, perhaps in a more 
desperate situation than anybody else.
    Last question for you and, again, I think this just 
reflects on so many of the issues that we have as we are 
dealing with the Forest Service. They say, okay, move away from 
old growth. We move away from old growth to young growth, the 
market gets shut down in China. They say well, focus on 
tourism, focus on that aspect of our forest which we are all 
about. We have extraordinary opportunities, but the complaints 
that we are hearing from recreation groups who have to wait 
months, sometimes years, to obtain a permit from the Forest 
Service in order to really enjoy them is again, yet, part of 
the continuing frustration.
    When I was up in the state last week a constituent informed 
my staff that he has been waiting three years, three years for 
a permit to guide tourists on a hike to a scenic spot on 
Admiralty Island there in the Tongass. The hike is a mere 20 
steps from a state-owned beach. So the frustration here is you 
say you can't harvest--we don't harvest. Look to tourism 
opportunities--but we are waiting years for permits. Now I know 
that in the past we have been able to blame some of the lack of 
staffing to move these permits through because of what was 
going on with fire borrowing, but we are beyond that now.
    But I am still told that we have not recovered in the state 
in terms of the budget cuts that had moved forward some years 
back. There was agreement that Alaska took a heavier hit than 
most other areas, and we included language in the 
appropriations bill to try to rectify and adjust some of that. 
But we still continue to have challenges in being able to meet 
the staffing needs.
    I met with Earl Stewart when I was up there, and we are 
looking to perhaps utilizing the ANILCA local hire a little bit 
better. But it is a challenge for us and as Forest Service has 
struggled to meet this challenge, Alaska has been on the short 
end of the stick when it comes to processes that work for not 
only the local people but those who are coming up from outside 
who want to avail themselves to tourist and recreational 
opportunities within the Tongass.
    Ms. Christiansen. Senator, I do hear your concern and I 
know it's not enough, but we are making progress. We've reduced 
the backlog of expired permits and those that are waiting for a 
new permit. We've set a priority. We are doing the hiring, the 
ANILCA local hire, and thanks to the fix that you did a few 
years back, that really makes it viable and resourceful for us. 
We're doing Centers of Excellence around growing the capacity 
and special use permits. We're streamlining our processes. 
There's several things we're doing.
    I'll leave it there because Americans want to use these 
forests and we need to give them access and that's a, it's an, 
I mean, through some kind of, these are usually outfitter and 
guides. We have over 8,000 outfitters and guides across the 
system. It's really important that we be responsive to give 
them the access. So we are prioritizing the permits. We've made 
progress. We're doing additional hires. We're convening, 
there's some places where there's some conflict between big 
game hunting and the cruise industry. We've convened some local 
capacity to work out who's where and what. We're investing in--
you and I were at Anan Wildlife Observatory and Mendenhall in 
some of the critical infrastructure. We do try to stick with 
our commitment that enjoying the Tongass and the Chugach 
National Forests is part of our duty of delivering our mission, 
and we will stay on it. I'm sorry to hear there's a three-year 
backlog, and I'd love to personally look at what that situation 
is.
    The Chairman. Well, maybe what I can suggest is that you 
and I have an opportunity for a more detailed review----
    Ms. Christiansen. You bet.
    The Chairman. ----of some of these issues that have 
presented themselves as sticking points.
    Ms. Christiansen. I'd be happy to.
    The Chairman. With that, Senator Cortez Masto, did you have 
any follow-up?
    Senator Cortez Masto. I do, to just address this issue 
because I do agree, as we have Humboldt-Toiyabe which is the 
largest national forest in the Lower 48, very proud of it. But 
I noticed there is an 18 percent decrease in the forest and 
rangeland research account, and it proposes to eliminate 
research efforts related to wildlife, fish and recreation. How 
does that impact, that decrease, how does it impact what the 
Chairwoman was just talking about, the outdoor recreation that 
we want to promote, continue to support in our forest land?
    Ms. Christiansen. Yeah, thank you for that question. It 
would, the reduction in the research, recreation research, 
would impact our ability to do the capacity studies, the 
interface, the social trends and the biophysical capacity that 
the landscape have for the right kind of use on the right kind 
of land. We would not have those resources available to us to 
manage forward.
    Senator Cortez Masto. Okay, thank you.
    Thank you.
    Ms. Christiansen. Thank you.
    The Chairman. Chief, thank you for being here this morning. 
I know that folks will probably have follow-on questions.
    Ms. Christiansen. You bet.
    The Chairman. We would appreciate your responses, and I 
will look forward to my meeting with you as well.
    Ms. Christiansen. Look forward to it.
    The Chairman. With that, the Committee stands adjourned.
    [Whereupon, at 11:32 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------  
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              



</pre></body></html>
